                U.S. ELECTION ASSISTANCE
                       COMMISSION
                OFFICE OF INSPECTOR GENERAL




                          FINAL REPORT:

                ADMINISTRATION OF PAYMENTS
                  RECEIVED UNDER THE HELP
                  AMERICA VOTE ACT BY THE
                NORTH CAROLINA STATE BOARD
                       OF ELECTIONS


                 MAY 13, 2003 THROUGH DECEMBER 31, 2007




Report No.
E-HP-NC-04-08
October 2008
                         U.S. ELECTION ASSISTANCE COMMISSION
                                  OFFICE OF INSPECTOR GENERAL
                                1225 New York Ave. NW - Suite 1100
                                      Washington, DC 20005



                                                                                 October 31, 2008

Memorandum

To:        Thomas Wilkey
           Executive Director

From:      Curtis W. Crider
           Inspector General

Subject:   Final Audit Report - Administration of Payments Received Under the Help America
           Vote Act by the North Carolina State Board of Elections
           (Assignment Number E-HP-NC-04-08)

          We contracted with the independent certified public accounting firm of Clifton
Gunderson LLP (Clifton Gunderson) to audit the administration of payments received under the
Help America Vote Act (HAVA) by the North Carolina State Board of Elections (SBE). The
contract required that the audit be done in accordance with U.S. generally accepted government
auditing standards. Clifton Gunderson is responsible for the attached auditor’s report and the
conclusions expressed therein.

           In its audit of the SBE, Clifton Gunderson concluded that, except for the accounting
and reporting of interest and state matching of funds, and the filing of comprehensive financial
reports, the audit concluded that the SBE generally accounted for and expended HAVA funds in
accordance with the HAVA requirements and complied with the financial management
requirements established by the U.S. Election Assistance Commission. The SBE also complied
with section 251 requirements.

      In its July 16, 2008 and October 17, 2008 responses to the draft report (Appendix A), the
SBE agreed with the report’s findings and recommendations, and provided corrective actions.

       Please provide us with your written response to the recommendation included in this
report by December 1, 2008. Your response should contain information on actions taken or
planned, including target dates and titles of EAC officials responsible for implementing the
recommendation.

        The legislation, as amended, creating the Office of Inspector General (5 U.S.C. § App.3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report to Congress.

        If you have any questions regarding this report, please call me at (202) 566-3125.
    PERFORMANCE AUDIT REPORT

ADMINISTRATION OF PAYMENTS RECEIVED
             UNDER THE
       HELP AMERICA VOTE ACT
               BY THE
      STATE OF NORTH CAROLINA

 May 13, 2003 Through December 31, 2007


       UNITED STATES ELECTION
       ASSISTANCE COMMISSION




                    a1
                                                TABLE OF CONTENTS




                                                                                                                           PAGE

EXECUTIVE SUMMARY ................................................................................................ 1

BACKGROUND .............................................................................................................. 2

AUDIT OBJECTIVES...................................................................................................... 2

SCOPE AND METHODOLOGY...................................................................................... 3

AUDIT RESULTS............................................................................................................ 4

APPENDICES

Appendix A: Executive Director, State Board of Elections Response To Audit
Results ........................................................................................................................... 7

Appendix B: Audit Methodology................................................................................ 10

Appendix C: Monetary Impact as of December 31, 2007 ......................................... 12
                       U.S. Election Assistance Commission
       Performance Audit of the Administration of Payments Received Under the
                Help America Vote Act by the State of North Carolina


EXECUTIVE SUMMARY

Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General to conduct a performance audit of the North Carolina
State Board of Elections (SBE) for the period May 13, 2003 through December 31, 2007 to
determine whether the SBE used payments authorized by Sections 101, 102, and 251 of the
Help America Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable
requirements; accurately and properly accounted for property purchased with HAVA payments
and for program income, and met HAVA requirements for Section 251 funds for an election fund
and for a matching contribution. We did not include a determination of whether the SBE and its
subgrantees met the requirements for maintenance of a base level of state outlays because the
Commission is reviewing its guidance on the applicability of the maintenance of a base level of
state outlays to the SBE’s subgrantees.

In addition, the Commission requires states to comply with certain financial management
requirements, specifically:

   •     Comply with the Uniform Administrative Requirements For Grants And Cooperative
         Agreements With State And Local Governments (also known as the “Common Rule”) as
         published in the Code of Federal Regulations 41 CFR 105-71.

   •     Expend payments in accordance with cost principles for establishing the allowance or
         disallowance of certain items of cost for federal participation issued by the Office of
         Management and Budget (OMB) in Circular A-87.

   •     Submit detailed annual financial reports on the use of Title I and Title II payments.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the accounting and reporting of interest and state matching of funds, and the filing of
comprehensive financial reports, our audit concluded that SBE generally accounted for and
expended HAVA funds in accordance with the requirements mentioned above for the period
from May 13, 2003 through December 31, 2007. The exceptions needing SBE’s management
attention are as follows:

   •     Interest is owed the election fund by the counties that failed to disburse HAVA Section
         102 funds timely.




                                                  1
    •   As of December 31, 2007, there was a shortfall of $2,067 in the amount of funds
        provided by the state as matching funds, as well as lost interest earnings because of a
        delay in providing the matching funds.

    •   The state’s financial status report to the EAC on HAVA Section 251 funds did not include
        all of the required information.

We have included in this report the SBE managements’ formal response to the findings and
recommendations dated July 16, 2008 and to the draft report dated October 17, 2008. The SBE
officials agreed with the recommendations and provided corrective action.


BACKGROUND

HAVA created the Commission to assist states and insular areas with the improvement of the
administration of Federal elections and to provide funds to states to help implement these
improvements. HAVA authorizes payments to states under Titles I and II, as follows:

    •   Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
        uniform and nondiscriminatory election technology and administration requirements,
        improving the administration of elections for Federal office, educating voters, training
        election officials and poll workers, and developing a state plan for requirements
        payments.

    •   Title I, Section 102 payments are available only for the replacement of punch card and
        lever action voting systems.

    •   Title II, Section 251 requirements payments are for complying with Title III requirements
        for voting system equipment; and for addressing provisional voting, voting information,
        statewide voter registration lists, and voters who register by mail.

Title II also requires that states must:

    •   Have appropriated funds “equal to 5 percent of the total amount to be spent for such
        activities [activities for which requirements payments are made].” [Section 253(b)(5)].

    •   “Maintain the expenditures of the State for activities funded by the [requirements] payment
        at a level that is not less than the level of such expenditures maintained by the State for
        the fiscal year ending prior to November 2000.” [Section 254 (a)(7)].

    •   Establish an election fund for amounts appropriated by the state “for carrying out the
        activities for which the requirements payment is made,” for the Federal requirements
        payments received, for “such other amounts as may be appropriated under law,” and for
        “interest earned on deposits of the fund.” [Section 254 )(b)(1)].


AUDIT OBJECTIVES

The objectives of our audit were to determine whether the North Carolina State Board of
Elections:


                                                 2
    1. Used payments authorized by Sections 101, 102, and 251 of HAVA in accordance with
       HAVA and applicable requirements;

    2. Accurately and properly accounted for property purchased with HAVA payments and for
       program income;

    3. Met HAVA requirements for Section 251 funds for an election fund and for a matching
       contribution. We did not determine whether the SBE met the requirement for
       maintenance of a base level of state outlays, because the Commission is reviewing its
       guidance on the applicability of the maintenance of a base level of state outlays to
       subgrantees of the SBE.

In addition, to accounting for HAVA payments, the Act requires states to maintain records that
are consistent with sound accounting principles that fully disclose the amount and disposition of
the payments, that identify the project costs financed with the payments and other sources, and
that will facilitate an effective audit. The Commission requires states receiving HAVA funds to
comply with certain financial management requirements, specifically:

    1. Comply with the Uniform Administrative Requirements For Grants And Cooperative
       Agreements With State and Local Governments (also known as the “Common Rule”) as
       published in the Code of Federal Regulations at 41 CFR 105-71.

    2. Expend payments in accordance with cost principles for establishing the allowance or
       disallowance of certain items of cost for federal participation issued by the OMB.

    3. Submit detailed annual financial reports on the use of Title I and Title II payments.1

SCOPE AND METHODOLOGY

We audited the HAVA funds received and disbursed by the SBE from May 13, 2003 through
December 31, 2007.

Funds received and disbursed from May 13, 2003 (program initiation date) to December 31,
2007 (55-month period) are shown below:

                                     FUNDS RECEIVED
   TYPE OF           EAC           STATE    INTEREST               TOTAL            FUNDS            DATA
  PAYMENT          PAYMENT         MATCH     EARNED              AVAILABLE        DISBURSED          AS OF

       101           $7,887,740     $           0     $555,586       $8,443,326        $6,825,359 12/31/2007
       102              893,822                 0            0          893,822           893,822 12/31/2007
       251           65,477,808         3,444,133    5,769,043       74,690,984        51,322,849 12/31/2007

                    $74,259,370     $3,444,133      $6,324,629      $84,028,132      $59,042,030 12/31/2007

Our audit methodology is set forth in Appendix B.


1 EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251 funds. For
Sections 101 and 102, reports are due on February 28 for the activities of the previous calendar year. For Section
251, reports are due by March 30 for the activities of the previous fiscal year ending on September 30.



                                                        3
AUDIT RESULTS

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the accounting and reporting of interest and state matching of funds, and the filing of
comprehensive financial reports, our audit concluded that SBE generally accounted for and
expended HAVA funds in accordance with the requirements mentioned above. This includes
compliance with section 251 requirements for an election fund. The SBE has taken action on or
is working to resolve the exceptions described below as set forth in Appendix A:

I.   Interest due from Subgrantees

The State election fund is owed interest of an undetermined amount as a result in the delays by
the counties in disbursing the HAVA Section 102 funds.

In August 2003 the State distributed $893,822 of Section 102 funds to 13 counties to replace
lever and/or punch card voting equipment. At the time the disbursements were made to the
counties, the State had not yet certified voting equipment, and all but one of the counties
retained the funds for varying lengths of time up to 36 months. In August 2006, the SBE
discovered that nine of the counties either still had undisbursed funds or had disbursed the
funds for items other than replacement equipment, including voting booths, storage carts,
lockable ballot bags, and PCMCIA cards. The State paid for voting equipment to ensure that
the SBE could certify that the State was in compliance with HAVA prior to the May 2, 2006
primary election. The SBE Director sent the counties a letter requiring them to remit payment to
the voting equipment vendor for the entire amount of Section 102 funds received. Since the
State had already paid for the equipment, the voting equipment vendor issued credits to the
State for the overpayments, which were applied to subsequent billings. This action resulted in
the proper use of Section 102 funds, although it was delayed compliance.

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments, 41 CFR 105-71, also known as the Common Rule states in 41 CFR
105-71.120(b)(7) that “procedures for minimizing the time elapsing between the transfer of
funds from the U. S. Treasury and disbursement by grantees and subgrantees must be followed
whenever advance payment procedures are used. Grantees must establish reasonable
procedures to ensure the receipt of reports on subgrantees’ cash balances and cash
disbursements in sufficient time to enable them to prepare complete and accurate cash
transactions reports to the awarding agency.”

Further, 41 CFR 105-71.121(b) states that “methods and procedures for payment shall minimize
the time elapsing between the transfer of funds and disbursement by the grantee or subgrantee,
in accordance with Treasury regulations at 31 CFR part 205.”




                                                4
Recommendation:

Direct the counties to compute the interest that should have been earned on the Section 102
funds from the date of receipt to the date they were expended on qualifying purchases, namely
the replacement of punch card and lever voting machines, and make restitution to the election
fund.

SBE’s Response:

The SBE concurred with the recommendation, based on their understanding of the EAC’s
acceptance of the following:

      1. Counties will be able to offset any interest liability it might owe on these funds by
         offsetting any county expenditures made by county funds to improve election
         administration allowed under Title I and Title II of HAVA.

      2. There will be no interest charged to counties that properly spent these Section 102
         funds within 30 days after receipt.

      3. That any interest on the Section 102 funds paid by counties will be deposited into the
         State HAVA Fund.


II.   Financial Reporting

The Section 251 Financial Status Reports, SF 269, did not include all of the required
information. Interest earned was only reported for the current year, and maintenance of effort
and state matching funds financial data were not reported on Forms SF 269 for any reporting
period through September 2006.

HAVA, Section 254(b)(1), Requirements for Election Fund states that, “For purposes of
subsection (a)(5), a fund described in this subsection with respect to a State is a fund which is
established in the treasury of the State government, which is used in accordance with
paragraph (2), and which consists of the following amounts: (D) Interest earned on deposits of
the fund.” Since interest is included in the fund balance, it should also be reported with the
federal funds authorized on the SF 269, line 10h, and explained in Line 12, Remarks.

Beginning with the September 2006 SF 269, information on the state’s maintenance of effort
and state matching compliance was required to be included as set forth in guidance provided in
the fall of 2006 on the EAC’s website at http://www.eac.gov/docs/Model 269 Title II final.pdf.

Recommendation:

Ensure that the Financial Status Report, SF 269 contains complete and accurate information
prior to filing, as identified on EAC’s website at http://www.eac.gov/docs/Model 269 Title II
final.pdf.

SBE’s Response:

The SBE concurred with the recommendation and revised the reports to reflect the required
information.


                                               5
III.   State Matching Funds

As of December 31, 2007, there is a $2,067 shortfall in the amount of state matching funds
required to augment Section 251 HAVA funds received. The method of computing the amount
of the state matching funds, as set forth in HAVA Section 253(b)(5), is to divide the
requirements payments to be received from the federal government by 95%, and then multiply
the grossed up number by 5%. For North Carolina, the $65,477,808 Section 251 proceeds,
divided by 95%, equals $68,924,008. The difference between the two numbers is the state
matching requirement of $3,446,200, compared to the amount provided by the state totaling
$3,444,133. In addition, there is lost interest on the shortfall, which has not been quantified, that
will accrue from the date the state matching funds were deposited until the date the shortfall is
added to the election fund.

SBE’s Response:

The SBE concurred with the recommendation and stated that the shortfall will be appropriated in
the 2009 Legislative Session.

                               ****************************************

We provided a draft of our report to the appropriate individuals of the North Carolina State
Board of Elections, and the United States Election Assistance Commission. We considered any
comments received prior to finalizing this report.

CG performed its work between February 5, 2008 and February 28, 2008.


a1
Calverton, Maryland
August 24, 2008




                                                  6
    Appendix A




7
8
                          STATE BOARD OF ELECTIONS
           6400 Mail Service Center            Raleigh, North Carolina 27699-6400


GARY O. BARTLETT                                                                Mailing Address:
Executive Director                                                                P.O. BOX 27255
                                                                          RALEIGH, NC 27611-7255
                                                                                  (919) 733-7173
                                                                              FAX (919) 715-0135



July 16, 2008

Re: Response to EAC NFR 0800.02
From: Gary O. Bartlett, Executive Director

The State Board of Elections does not dispute the Notice of Findings and
Recommendations 0800.02. The issue listed was the State Board of Elections had not
included all the required information on its Section 251 Financial Status Report, SF 269
for 2006 and prior years. As noted in the NFR, the reports have already been corrected to
reflect accurate information. This was completed during the course of the audit.



July 16, 2008

Re: Response to EAC NFR 0800.04
From: Gary O. Bartlett, Executive Director

The State Board of Elections does not dispute the Notice of Findings and
Recommendations 0800.04. The issue listed was the State Board of Elections had not
received the proper amount of state matching funds in its budget.

We have been informed by North Carolina Legislative Fiscal Staff that the shortfall of
$2,067 will be appropriated in the 2009 Legislative Session.

We note that the state auditors conducting a prior single audit of HAVA funds found the
shortfall, but informed me that the amount of the shortfall was too small to report under
the reporting guidelines they followed.




                                                   9
                                                                                        Appendix B
                                    AUDIT METHODOLOGY


Our audit methodology included:

•   Assessing audit risk and significance within the context of the audit objectives.

•   Obtaining an understanding of internal control that is significant to the administration of the
    HAVA funds.

•   Understanding relevant information systems controls as applicable.

•   Identifying sources of evidence and the amount and type of evidence required.

•   Determining whether other auditors have conducted, or are conducting, audits of the
    program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

•   Interviewed appropriate SBE employees about the organization and operations of the HAVA
    program.

•   Reviewed prior single audit report and other reviews related to the state’s financial
    management systems and the HAVA program for the last 2 years.

•   Reviewed policies, procedures and regulations for the SBE’s management and accounting
    systems as they relate to the administration of HAVA programs.

•   Analyzed the inventory lists of equipment purchased with HAVA funds.

•   Tested major purchases and supporting documentation.

•   Tested randomly sampled payments made with the HAVA funds.

•   Verified support for reimbursements to local governments (counties, cities, and
    municipalities).

•   Reviewed certain state laws that impacted the election fund.

•   Examined appropriations and expenditure reports for state funds used to maintain the level
    of expenses for elections at least equal to the amount expended in fiscal year 2000 and to
    meet the five percent matching requirement for section 251 requirements payments.

•   Evaluated compliance with the requirements for accumulating financial information reported
    to the Commission on the Financial Status Reports, Form SF-269, accounting for property,
    purchasing HAVA related goods and services, and accounting for salaries.

•   Verified the establishment and maintenance of an election fund.



                                                10
•   Conducted site visits of selected counties to perform the following:

         Observe equipment purchased with HAVA funds for proper accounting and
         safeguarding
         Test disbursement of HAVA funds for allowability and compliance
         Test cash receipts from SBE to ensure proper cash management
         Test procurement of voting equipment for competitive bid process
         Ensure compliance with HAVA Act.




                                                11
                                                                                Appendix C



              MONETARY IMPACT AS OF DECEMBER 31, 2007


                                                  Questioned       Additional Funds for
                Description                         Costs                Program

   State matching funds                                    $0                     $2,067

   Totals                                                  $0                     $2,067


Note: In addition to the amounts shown in the schedule above, additional funds for the HAVA
      program should be made available as a result of the resolution of issues related to
      interest earnings as discussed in the report.




                                             12
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1225 New York Ave. NW - Suite 1100
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
